SEC.gov |  Fort Worth District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Fort Worth District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
FORT WORTH DISTRICT OFFICE
Audit No. 345
November 16, 2001
Limited Audit of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of selected financial and administrative controls in the Commission's District office in Forth Worth, TX (FWDO).  The audit procedures included interviewing FWDO staff, reviewing supporting documentation, and conducting limited tests of transactions.  The purpose of the audit was to provide the Commission with negative assurance concerning these controls.1  We performed our audit in October 2001, in accordance with generally accepted government auditing standards.
BACKGROUND
The Fort Worth District Office assists the Central Regional Office in Denver, CO, in carrying out the Commission's programs, subject to Commission oversight, in Arkansas, Colorado, Kansas, Nebraska, New Mexico, North Dakota, Oklahoma, South Dakota, Texas, Utah and Wyoming.  The FWDO exercises a broad range of financial and administrative functions, including: time and attendance; purchasing; travel arrangements; property management; and budgeting.
AUDIT RESULTS
During the limited audit described above, no material weaknesses in the FWDO's financial and administrative controls came to our attention.
We informally discussed a number of non-material findings and recommendations with FWDO management, including the finding below.  Management generally concurred with the findings and agreed to implement the recommendations.
SECURITY
We found that the FWDO has proactively taken several measures to protect its employees and electronic data after the recent terrorist attacks.  As discussed below, office security can be further enhanced.
Physical access to the FWDO suite is obtained by entering a pass code on a keypunch pad. 2  Currently, the code is changed when an FWDO employee leaves or other significant event occurs.  Periodic (e.g., every two months) changes of the pass code would enhance security.
Within the suite, most offices and rooms, including the mail and supply rooms, do not have locks.  Door locks would better protect sensitive information (such as case files), and supplies.
We noted that a non-public case document was left on a printer in an open suite area overnight, where it could be lost or taken.  Reminding FWDO to safeguard non-public information appears appropriate.
The District Administrator indicated that he favors installation of a walk-through metal detector at the FWDO. 3   He stated that FWDO staff occasionally receive threats from persons under investigation.
Recommendation A
The FWDO should enhance security by periodically changing door pass codes, installing door locks and reminding its staff to safeguard non-public information in common areas.
1    Negative assurance means that no material internal control weaknesses came to our attention during our limited audit.
2    Building personnel and cleaning staff enter the suite with a master key.
3    The Office of Administrative and Personnel Management stated that the installation of a walk-through metal detector would be inappropriate because a trained professional security guard must be present to monitor its use in case there is a positive alert from the metal detector.  The FWDO does not have security guards or trained personnel to confront someone with a weapon.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us